LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 26, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-122:

DAVID THOMPSON, AARON DOWNING AND JIM CRAWFORD V.
HEATHER HEBDON, IN HER OFFICIAL CAPACITY AS THE EXECUTIVE
DIRECTOR OF THE ALASKA PUBLIC OFFICES COMMISSION, ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae The Institute for Free Speech in Support of Petitioners referenced above
contains 4,616 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

